BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound and
40 copies of the foregoing Petition for a Writ of
Certiorari in Ee Hoong Liang v. Panircelvan
Kaliannan; Tong Lay Yeen Giovanna; Tan Hock Seng;
Roger Teo Kok Wei; Teo Khim Ho; Chang Mun
Kumchristina; Koh Hwee Ben Erin; Ng Yim Har; Koh
Thong Juay; Tong Siew Geok, were sent via Two Day
Service to the U.S. Supreme Court, and 3 copies were
sent Two Day Service and e-mail to the following
parties listed below, this 22nd day of September, 2021:
James P. Booker
Peiffer Wolf Carr Kane & Conway, LLP
1422 Euclid Avenue
Suite 1610
Cleveland, OH 44115
(216) 589-9280
jbooker@prwlegal.com
John Barton Goplerud
Brian O. Marty
Shindler & Anderson
5015 Grand Ridge Drive
Suite 100
West Des Moines, IA 50265-5749
(515) 223-4567
goplerud@sagw law .com
marty@sagw law .com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

1

Washington, DC 20005

Alan L. Rosca
Goldman Scarlato & Penny PC
23250 Chagrin Boulevard
Suite 100
Beachwood, OH 44122
(216) 570-0097
rosca@lawgsp.com
Mac Schneider
Schneider Law Firm
815 Third Avenue, S.
Fargo, ND 58103
(701) 235-4481
mac@schneiderlawfirm.com

Counsel for Respondents
Michael Confusione
Counsel of Record
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
(800) 790-1550
mc@heggelaw.com

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 22, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

~=

JOHN Q GAUAGHER
February 14, 2023

